Oversight Review                March 3, 2009


   Key Strategies and Practices for Oversight
       of DoD Contracted Audit Services


          Report No. D-2009-6-003
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Office of Audit
  Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Audit Policy and
  Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas and requests
  can also be mailed to:

                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1017)
                                 Arlington, VA 22202-4704




Acronyms
COR                Contracting Officer’s Representative
GAO/PCIE FAM       Government Accountability Office/President’s Council on Integrity and
                   Efficiency Financial Audit Manual
FPDS-NG            Federal Procurement Data System-Next Generation
IPA                Independent Public Accountant
OIG                Office of Inspector General
       Mission of the DoD Inspector General
The Department of Defense Office of Inspector General promotes integrity,
accountability, and improvement of Department of Defense personnel, programs, and
operations to support the Department’s mission and serve the public interest.


              Policy and Oversight Mission
The Office of the Deputy Inspector General for Policy and Oversight provides oversight
policy and support to the DoD and conducts assessments to improve DoD programs and
operations.


         Contribution to Good Government
Audit Policy and Oversight contributes to good government by performing independent
reviews to ensure that DoD auditors and non-DoD auditors who audit DoD programs or
functions understand and comply with Government Auditing Standards and other
applicable standards and procedures. Audit Policy and Oversight’s range of work to
support the DoD includes:

   •   Developing and maintaining DoD directives, instructions, and other guidance
       related to audits and audit standards.

   •   Commenting on and coordinating comments of DoD auditors on proposals by
       legislative or standard-setting bodies which affect auditors and audit work, such
       as pending legislation and new issuances of or proposed changes to audit-related
       standards, procurement regulations, policies, and procedures.

   •   Providing for external, independent reviews of quality control systems of audit
       organizations who audit DoD programs or functions or who perform audits under
       the Single Audit Act, as amended, of entities that receive DoD Federal awards.

   •   Assessing the reasonableness of contracting officials’ implementation of contract
       audit report recommendations to maximize benefit to the Department.

   •   Providing technical advice on audit standards and practices as well as useful tools,
       best practices, lessons learned, and training to the DoD audit community.


                  Core Values
       Accountability • Integrity • Efficiency
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
  COMPTROLLER)
DIRECTOR, DEFENSE ADVANCED RESEARCH PROJECTS AGENCY
DIRECTOR, DEFENSE COMMISSARY AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, DEFENSE THREAT REDUCTION AGENCY
DIRECTOR, MISSILE DEFENSE AGENCY
DIRECTOR, TRICARE MANAGEMENT ACTIVITY
COMMANDER, UNITED STATES ARMY CORPS OF ENGINEERS
DEPUTY INSPECTOR GENERAL FOR AUDITING, DEPARTMENT OF DEFENSE OFFICE
  OF INSPECTOR GENERAL
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE NAVY
AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
                                      Foreword
DoD Instruction 7600.02, “Audit Policies,” permits DoD Components to contract for audit
services when applicable expertise is unavailable within the DoD audit organization,
augmentation of the DoD audit organization’s audit staff is necessary to execute the annual audit
plan, or temporary audit assistance is required to meet audit reporting requirements mandated by
law or DoD Regulation. The Inspector General Act of 1978, as amended, tasks the Office of the
Inspector General of the Department of Defense with taking appropriate steps to assure that any
work performed by non-Federal auditors complies with the Government Auditing Standards
established by the Comptroller General of the United States for audits of Federal establishments,
organizations, programs, activities, and functions.

This report summarizes what we observed from the detailed review of the capabilities and
practices in overseeing five DoD contracts for audit services, as well as suggests certain key
strategies and practices we believe are essential to effective and efficient oversight. It discusses
(1) the attributes of a qualified contracting officer’s representative, (2) oversight planning,
(3) audit monitoring, (4) monitoring contractor independence, and (5) monitoring contractor
qualifications. It also highlights the results of our discussions with other Federal offices of
inspectors general about the practices they employ when overseeing audit services contracts that
could yield benefits to the DoD. Highlights cover (1) communicating expectations and results,
(2) establishing detailed milestones, (3) tracking deliverables, and (4) determining lessons
learned.

This report is intended for use by DoD contracting and contract oversight officials. While the
suggestions presented are not mandatory, we hope that employing them will guide the DoD
officials towards taking appropriate steps to monitor and evaluate contractor performance early
on and as the audit progresses, thereby addressing and resolving problems that may result in
reduced audit quality, missed deadlines, or additional costs before the audit is completed. Doing
so will help ensure that the DoD entities contracting for or requesting audit services receive
quality, timely audit results that can be relied upon for decision making purposes.




                                                  i
Table of Contents
Foreword                                                              i

Introduction
  Background                                                         1
  Service Contracting Policies                                       3
  Policies on Services by Non-Federal Auditors                       4

Results of Review
  COR Qualifications                                                  6
  Oversight Planning                                                  8
  Audit Monitoring                                                   11
  Monitoring Contractor Independence                                 13
  Monitoring Contractor Qualifications                               15
  Practices of Other Federal OIGs                                    17
  Conclusion                                                         18

Appendixes
  A. Scope and Methodology                                           19
  B. Analysis of DoD Contracting Activity for FY 2004 through 2006   21
                                      Introduction
        Our review objectives were to determine the effectiveness of and lessons learned from
        the oversight of DoD contracted audit services and to identify other Federal agencies’
        practices that could yield benefits to the DoD. We determined the extent of DoD’s use of
        audit contractors by analyzing procurement data on contract actions for auditing services.
        We also identified audit services contracts for which the DoD Office of the Inspector
        General is overseeing. For selected contracts, we performed a detailed review of the
        capabilities and practices to oversee them. This report summarizes the results of our
        review. See Appendix A for a discussion of the scope and methodology and for prior
        coverage related to the objectives. This report also highlights the results of our
        discussions with other Federal offices of inspectors general about their use of contractors
        to perform audit services and their practices and experiences overseeing audit services
        contracts.

Background
        Contract Oversight. Audit work and reporting quality, timeliness, and compliance with
        applicable auditing standards are essential elements of successful performance under an
        audit services contract. Careful oversight of contractor performance can increase the
        likelihood that these goals are met. This means keeping well-informed of what the
        contractor is doing; using technical expertise to identify contractor actions or failures to
        act that clearly affect the quality, progress, or cost of the work; calling the contractor’s
        attention to deficiencies; and determining appropriate actions to deal with deficiencies.
        These functions are typically delegated to a contracting officer’s representative (COR),
        and the level of effort that will be necessary and the techniques that will be used should
        be addressed in a COR oversight plan. The type of effort that is appropriate depends on
        the complexity and scope of the contract, as well as the contract’s specific requirements
        for monitoring, inspection, and acceptance. Factors influencing the degree of oversight
        include the type of contract, criticality of the requirements, contract performance
        schedule, contractor’s experience with providing the services, contractor’s performance
        history, and the level of the contractor’s own inspection system.

        Inspector General Oversight. An Office of Inspector General (OIG) may (1) contract
        with an independent public accountant (IPA) to perform parts of or an entire audit or
        (2) use the work of an IPA contracted by another entity. For financial audits, the Office
        of Management and Budget 1 encourages OIGs to use section 650, “Using the Work of
        Others,” of the Government Accountability Office/President’s Council on Integrity and
        Efficiency (GAO/PCIE) Financial Audit Manual (FAM) to help them design and perform
        oversight procedures when using the work of IPAs. FAM 650 provides that, during




1
 Office of Management and Budget (OMB) Bulletin Nos. 06-03 and 07-04, “Audit Requirements for Federal
Financial Statements.”

                                                     1
         planning, OIG auditors should decide on the amount of assurance or degree of
         responsibility they wish to provide or accept for the work of an IPA, and based on that
         decision, the type of report or letter they will issue. The degree of responsibility varies
         by type of report or letter and generally increases in the order presented below. OIG
         auditors may decide to:

             •    not associate the OIG with the IPA’s work, 2

             •    issue a letter transmitting the IPA’s report and expressing either no opinion or
                  negative assurance (i.e., found no instances of material noncompliance with
                  applicable auditing standards) on the IPA’s work,

             •    issue a report that refers to the IPA’s report and indicates a division of
                  responsibilities between the IPA and the OIG,

             •    issue a report that expresses concurrence or non-concurrence with the IPA’s
                  report, or

             •    issue a report that does not mention the IPA’s work, thus accepting and
                  representing the work of the IPA as the OIG’s work.

         FAM 650 also provides that OIG auditors should develop a written plan for reviewing,
         and if necessary, testing the work done by an IPA. This plan should document the level
         of review (high, moderate, or low) the auditors believe is necessary based on the type of
         report or letter they will issue and their evaluation of audit risk, line item materiality, and
         the IPA’s independence, objectivity, qualifications, and history. The level of review
         increases as the degree of responsibility for the IPA’s work, risk, and materiality
         increases and their confidence about the IPA’s objectivity, qualifications, and
         performance decreases.

         An OIG may also provide representation on an audit committee 3 overseeing the work of
         a contracted IPA. In so doing, the OIG participates as an observer or acts as an expert in
         a purely advisory, nonvoting capacity to advise entity management on issues based on the
         specialized knowledge and skills of the OIG auditors.




2
  In this situation, the IPA’s report is provided directly to the auditee and significant users. OIG auditors may use
this method when the OIG merely procures the audit but is not acting as “the auditor.” However, the contracting
and contract oversight process generally will require the OIG auditors to evaluate the IPA’s independence,
objectivity, and qualifications and to monitor performance under the contract.
3
 In the DoD, an audit committee may also be referred to as a “financial audit advisory committee” or an “audit
preparedness committee.”

                                                           2
Service Contracting Policies
    Management Oversight of Service Contracting. Federal Acquisition
    Regulation 37.102 requires agencies to establish effective management practices in
    accordance with Office of Federal Procurement Policy Letter 93-1, “Management
    Oversight of Service Contracting,” to prevent fraud, waste, and abuse in service
    contracting. The policy letter makes agency heads responsible for ensuring that service
    contracts are awarded and administered in such a manner so that customers receive
    quality services on time and within budget. It also emphasizes the use of “best practices”
    techniques when contracting for services and in contract management and administration
    to help achieve excellence in contractor performance and offers guidance to ensure that
    agencies use good management practices and contract administration techniques so that:

       •   sufficient resources are at hand to evaluate contractor performance when the
           statement of work requires the contractor to provide advice, analysis and
           evaluation, opinions, alternatives, or recommendations that could significantly
           influence agency policy development or decision-making;

       •   quality assurance plans contain enough specifics to adequately monitor contractor
           performance;

       •   statements of work specify contract deliverables and require progress reporting on
           contractor performance; and

       •   adequate expertise exists within the agency to independently evaluate the
           contractor's approach, methodology, results, options, conclusions, or
           recommendations.

    Contract Quality Assurance. The Federal Acquisition Regulation Subparts 37.1
    and 37.6 emphasize the use of performance standards and quality requirements to ensure
    that appropriate quality levels are achieved out of the services acquired by contract.
    Federal Acquisition Regulation 37.6 underscores the need to prepare statements of work
    that enable the assessment of work performance against measurable performance
    standards and quality assurance surveillance plans that specify all work requiring
    surveillance and the methods of surveillance.




                                            3
Policies on Services by Non-Federal Auditors
   Inspector General Oversight of Non-Federal Auditors. The Inspector General Act of
   1978, as amended, establishes the duties, responsibilities, and authorities of the Office of
   the Inspector General of the Department of Defense. The Act gives the Inspector General
   oversight of non-Federal auditors and makes the Inspector General responsible for
   establishing guidelines on when it shall be appropriate to use non-Federal auditors and
   taking appropriate steps to assure that any work performed by non-Federal auditors
   complies with the Government Auditing Standards established by the Comptroller
   General of the United States for audits of Federal establishments, organizations,
   programs, activities, and functions.

   DoD Contracting for Audit Services. The DoD OIG established guidelines on the use
   of non-Federal auditors in DoD Instruction 7600.02, “Audit Policies.” The instruction
   permits DoD Components to contract for audit services when applicable expertise is
   unavailable within the DoD audit organization, augmentation of the DoD audit
   organization’s audit staff is necessary to execute the annual audit plan, or temporary audit
   assistance is required to meet audit reporting requirements mandated by law or DoD
   Regulation. Components are to obtain a review of the solicitation for audit services from
   the Office of the Assistant Inspector General for Audit Policy and Oversight, DoD OIG,
   before releasing the solicitation to prospective contractors. The purpose of this review is
   to ensure that the use of non-Federal auditors is in compliance with DoD
   Instruction 7600.02 and applicable laws and regulations and that the solicitation requires
   compliance with applicable auditing standards.

   Compliance with Audit Standards. Defense Federal Acquisition Regulation
   Supplement 237.270 requires that contracts for audit services include a clause requiring
   the contractor, in the performance of all audit services under the contract, to comply with
   Government Auditing Standards issued by the Comptroller General of the United States.
   These standards provide a framework for high-quality audit work by requiring audit
   organizations to (1) maintain the highest degree of objectivity and independence when
   performing its work; (2) have staff with the appropriate technical knowledge, skills, and
   experience conduct the work; (3) maintain a system of quality control for ensuring
   compliance with applicable auditing standards; and (4) periodically undergo an external
   peer review of its quality control system. The standards require auditors to adequately
   plan their work and to obtain sufficient appropriate evidence to support their conclusions
   and opinions. Also, a written record of the auditors’ evidence must be retained in the
   form of audit documentation and should show the work performed, evidence obtained,
   and conclusions reached as well as adequate planning and proper supervision.




                                            4
                                 Results of Review
         DoD Components contracting for audit services and the DoD OIG have a shared goal of
         reasonable assurance of contractor compliance with Government Auditing Standards in
         the performance of audit work and the reporting of audit results. With this goal in mind,
         we performed this review in part to examine how DoD Components manage and conduct
         oversight of contracted audit services to ensure contractors not only meet contract
         requirements but also follow applicable auditing standards. From the detailed review of
         five contracts, we learned that oversight capabilities and practices varied and that certain
         key strategies need to be disseminated. This report summarizes what we observed and
         suggests the following strategies that we believe are essential to effective and efficient
         oversight of contracted audit services.

             •    Designate qualified personnel with significant experience in auditing and
                  appropriate training in contract administration as contracting officers’
                  representatives (CORs).

             •    Prepare a comprehensive written plan for overseeing contracted audit services.

             •    Monitor and evaluate the contractor’s work as it progresses to resolve problems
                  that may result in reduced audit quality 4 , missed deadlines, or additional costs.

             •    Monitor contractor independence under the standards for each audit performed
                  and secure contractor resolution of any independence impairment identified.

             •    Monitor the adequacy of the contractor’s quality control system and the
                  competence of its staff and address conditions that may jeopardize audit quality.

         Other Federal Offices of Inspectors General (OIGs) also contract for audit services and
         share the common goal of receiving quality services on time, within cost, and compliant
         with applicable auditing standards and the contract. Therefore, we surveyed selected
         OIGs about their contract oversight practices. Key practices included:

             •    communicating expectations and results,
             •    establishing detailed milestones,
             •    tracking deliverables, and
             •    determining lessons learned.




4
  Audit quality as used in this report refers to the auditor’s compliance with applicable auditing standards. Auditing
standards are generally accepted measures of audit quality. Compliance with standards helps assure users of audit
reports that the auditor has adequately performed the audit and that the audit report can be relied upon.

                                                          5
COR Qualifications
         Designating CORs with significant auditing experience and appropriate contract
         administration training is essential for effective oversight of contracted audit services.
         Defense Federal Acquisition Regulation Supplement 201.602-2 requires that the COR be
         qualified by training and experience commensurate with the specific technical monitoring
         and administrative responsibilities delegated to them. Accordingly, CORs designated to
         perform technical monitoring and administration of a contract for “audit services” should
         be qualified by training and experience in auditing and contract administration.
         Preferably this would be the same competencies and skills as experienced auditors who
         perform audit work in accordance with Government Auditing Standards, 5 as well as
         training on contract administration functions such as proper file documentation and
         performance assessment methods. Having personnel with those attributes as CORs is
         desirable and helps establish a foundation for effective oversight.

         The following table summarizes what we observed with regard to the experience and
         training of the CORs designated to oversee the selected contracts for audit services. The
         first column identifies desirable but not mandatory attributes in a COR. Also, some of
         the attributes are more relevant to certain types of audits than others. For example, the
         professional designation as a certified public accountant is an attribute more relevant to
         the qualifications necessary in overseeing a financial statement audit than an information
         assurance audit. 6




5
 Government Auditing Standards define an “experienced auditor” as an individual who possesses the competencies
and skills that would have enabled him or her to perform the audit, which includes an understanding of (1) audit
processes, (2) Government Auditing Standards and applicable legal and regulatory requirements, (3) the
environment in which the audited entity operates, and (4) issues relevant to the audited entity’s environment.
6
 An information assurance audit (also known as a SAS 70/88 review) involves examining a service organization’s
controls over transactions processing, including information systems controls, and is generally designed to provide
user organizations and their auditors with information about the service organization’s internal control environment.

                                                          6
                     Table 1. Qualifications of CORs Designated on Selected Contracts
                                                      DeCA     DFAS MERHCF DDRS                        DISA
                     Attribute                       FS Audit FS Audit FS Audit IA Audit              IA Audit
 Certificate of Training for COR Course                 •        •        •        •                     •
 Certified Information Systems Auditor                                             •                     •
 Certified Public Accountant                                              •        •
 Entity Specific Accounting Experience                  •        •
 Entity Specific Auditing Experience                                      •        •                      •
 Senior-Level* Accounting Experience                    •        •
 Senior-Level* Auditing Experience                                        •        •                      •
 DeCA       Defense Commissary Agency                       FS     Financial Statements
 DDRS       Defense Departmental Reporting System           IA     Information Assurance
 DFAS       Defense Finance and Accounting Service          MERHCF Medicare-Eligible Retiree Health
 DISA       Defense Information Systems Agency                     Care Fund
 *
     Held a senior-level position such as partner, director, manager, senior auditor, or senior accountant.


Two of the contracts had CORs that did not have auditing experience beyond three years
and the CORs did not specifically engage an audit specialist to assess audit quality or
contractor quality control before the contractors issued their draft audit reports. This
condition could jeopardize the effectiveness of the contract oversight because the CORs
alone may not have enough practical experience in performing and reviewing audit work
to be technically competent in spotting deficiencies in the contractors’ work early on and
as it progresses. Because limited guidance exists as to the specific attributes necessary in
a COR, we encourage the use of GAO/PCIE FAM Section 650 as a guide in designating
CORs on audit services contracts. FAM 650 basically indicates that staff reviewing the
work of auditors under contract generally should have enough experience in the type of
audit being performed to understand the judgments that need to be made by the auditors
and to interact with the higher levels of the auditors’ organization. Further, most of the
review generally should be done by or under the direction of an assistant director or a
manager who has significant experience in performing and reviewing the type of audit
work being performed.


 We suggest that components without CORs having significant
 experience in performing and reviewing audit work of the type
 performed, seek the assistance of other government personnel with the
 necessary technical expertise, and have them assess audit quality and
 contractor quality control.




                                                    7
Oversight Planning
         Preparing a comprehensive written plan for overseeing contracted audit services is
         essential for effective and efficient oversight.




         A well-conceived plan documents the level of review, oversight strategies, and
         monitoring procedures the COR determines is necessary to ensure that the contractor
         delivers quality services on time, within cost, and compliant with applicable auditing
         standards and the contract. The plan also documents the COR’s assessments of the
         contractor’s objectivity, qualifications, past performance, and system of quality control,
         as well as assessments of risk and materiality such as technical, cost, and schedule risks; 7
         inherent and control risk conditions; 8 and matters individually or collectively significant
         to the audited entity or primary users of the audited information. 9




7
 Technical, cost, and schedule risks are potential problem areas posing the greatest risk to the contractor’s ability to
meet contract requirements and deliver quality services on time and within cost.
8
  Inherent and control risk conditions are, for example, areas with a history of significant audit adjustments, new
types of transactions, transactions or accounts subject to significant management judgments (e.g., estimates), new or
significantly changed information systems, and areas with known control deficiencies.
9
  Significant matters include, for example, significant line items, individual account balances, or classes of
transactions, or components individually generating transactions or account balances at a level significant to the
overall entity.

                                                           8
The level of review is a judgment the COR makes and generally increases as risk and
materiality increases and the COR’s confidence in the contractor’s objectivity,
qualifications, performance, and quality control decreases.




The strategies and procedures to be carried out are tailored to the planned level of review
and include steps to assess audit quality and the contractor’s quality control. Having
plans designed this way is desirable and helps establish a foundation for effective and
efficient oversight by helping CORs prioritize and focus their oversight efforts on areas
of higher risk and materiality.

The following table summarizes what we observed with regard to the oversight planning
that the CORs on the selected contracts performed. The first column identifies desirable
but not mandatory planning actions.

                      Table 2. Oversight Planning Observed on Selected Contracts
                                                DeCA     DFAS MERHCF DDRS             DISA
               Planning Action                 FS Audit FS Audit FS Audit IA Audit   IA Audit
 Documented Level of Review – L, M, H *                             •        •          •
 Documented Basis for Level of Review                               •        •          •
 Documented Strategies, Monitoring Plans          •        •        •        •          •
 Documented Steps to Assess Audit Quality                           •        •          •
 Documented Steps to Assess Quality Control                         •        •          •
 Scheduled Tasks and Task Milestones              •        •
 Scheduled Deliverables and Delivery Dates        •        •        •        •          •
 *
     L (low), M (moderate), H (high)


The CORs on all five contracts took steps to identify the contractors’ work plans and
schedules and also prepared written plans of action or schedules for use in monitoring the
contractors’ performance. However, none of the documented planning actions indicated
that the CORs based their strategies, techniques, and procedures on factors of risk,
materiality, and contractor traits. For example, it was not evident how the CORs


                                              9
         analyzed and used factors such as the ones listed in the following figure to determine
         their plan of what needed to be monitored, how, and how often.

                                    Factors in Determining a Contract Monitoring Plan
                 9    Technical complexity of the contract tasks
                 9    Degree of cost monitoring needed
                 9    Urgency of the delivery schedule
                 9    Nature and extent of inherent risk conditions in the areas under audit
                 9    Existence of known control weaknesses in the areas under audit
                 9    Materiality or significance of the areas, items, or sites under audit
                 9    Objectivity of the contractor and its staff with respect to the audited entity
                 9    Knowledge, skills, and experience of the contractor’s staff for the tasks assigned
                 9    Contractor’s past performance as to quality, timeliness, and cost control
                 9    Nature and extent of the contractor’s quality control policies and procedures
                 9    Results of the latest external peer review of the contractor’s quality control system


         Also, the CORs on two contracts did not include in their plans steps to assess audit
         quality or the extent of the contractor’s quality control methods. An example of a step
         would be to identify the contractor’s methods of controlling audit quality, such as
         supervisory, technical, and other quality control review, 10 and determine whether a
         selection of the contractor’s key audit documentation 11 complies with applicable auditing
         standards and other relevant requirements and evidences appropriate quality control
         review.

          We encourage CORs overseeing DoD contracted audit services to
          discuss in their written oversight plans their judgments about specific
          risks, areas of significance, and characteristics of the contractor. CORs
          should determine the level of review, oversight strategies, and
          monitoring procedures necessary for effective and efficient oversight.
          Including determinations on monitoring needs (how and how often) and
          procedures to assess audit quality and contractor quality control.




10
   Supervisory, technical, and other quality control review includes, for example, supervisory reviews by appropriate
first line and second line supervisors; technical reviews by specialists such as actuaries, information technology
experts, and statisticians; and quality control reviews by individuals independent of the audit engagement such as
concurring review partners and report referencing reviewers.
11
   Key audit documents are, for example, audit plans, work programs, working papers concerning conclusions on
principal audit areas, high-risk matters, or major issues, working papers supporting matters reported, and draft and
final audit reports.

                                                           10
Audit Monitoring
        Monitoring and evaluating the contractor’s work as it progresses is essential to effective
        oversight of contracted audit services.




        Monitoring and evaluating the contractor’s work helps to identify early signs of any
        performance problems that may result in reduced audit quality, missed deadlines, or
        additional costs if not resolved. Monitoring can be accomplished by meetings with the
        contractor early on about the scope and timelines of the audit work, obtaining progress or
        status reports from the contractor, and participating in key meetings 12 between the
        contractor and entity officials. Evaluating performance can be accomplished by
        reviewing the contractor’s plans, key documentation, and written products or deliverables
        for technical completeness, evidence of quality control review, and compliance with
        applicable auditing standards and the contract. Documenting actions taken in overseeing
        a contract is also important. Defense Federal Acquisition Regulation Supplement
        Procedures, Guidance, and Information 201.602-2 requires that the COR maintain a file
        containing documentation of their actions in accordance with the authority and
        responsibilities delegated to them by the contracting officer. Documentation can take
        many forms, and when done thoroughly, can be very useful in the event of contract
        dispute by providing a complete picture of discussions held, actions taken, problems
        identified, and decisions made by the COR as well as any actions by the contractor in
        response to COR requests.




12
  Key meetings are, for example, opening and completion conferences, planning meetings, meetings discussing
high-risk or significant areas, and meetings discussing the contractor’s conclusions.

                                                      11
The following table summarizes what we observed with regard to the audit monitoring
that the CORs on the selected contracts performed. The first column identifies desirable
but not mandatory monitoring actions. In addition, some of the monitoring actions are
more relevant to certain types of audits than others. For example, reviewing the
contractor’s account risk analysis is a monitoring action relevant to overseeing a financial
statement audit not an information assurance audit. Also, the nature, timing, and extent
of the monitoring actions performed can vary depending on the facts and circumstances
of each contract or audit situation and the level of review the COR determines is
necessary. For example, monitoring actions can be more extensive during the first year
with a new contract or new contractor as well as during the audit of a particular unit or
segment(s) of an organization that is unique or complex and less extensive when the COR
is thoroughly familiar with the contractor’s quality control methods and decides to rely
on them.

                        Table 3. Audit Monitoring Observed on Selected Contracts
                                                      DeCA3    DFAS3 MERHCF DDRS                      DISA
                 Monitoring Action                   FS Audit FS Audit FS Audit IA Audit             IA Audit
 Attended Entrance and Exit Conferences                 •        •        •        •                    •
 Attended Planning Meetings                             •        •        •        •                    •
 Attended Key Meetings Held By Contractor               •        •        •        •                    •
 Obtained Periodic Progress or Status Reports           •        •        •        •                    •
 Verified Deliverables Met Contract Terms               •        •        •        •                    •
 Identified QCs1 for Ensuring Audit Quality                               •        •                    •
 Verified Whether QCs In Use                                              •        •                    •
 Reviewed key audit documentation, e.g.:
 - data, document, sampled items request lists           •          •
 - notices of findings                                   •          •
 - audit plans                                                                   •           •           •
 - client (or entity) profile                                                    •
 - general risk analysis                                                         •           •           •
 - account risk analysis                                                         •
 - cycle memorandums, flowcharts                                    •            •           •
 - specific control evaluations                                                  •           •           •
 - test procedures/plans                                                         •           •           •
 - summary memorandums of work and results                                       •                       •
 - draft audit reports                                   •          •            •           •           •
 - final audit reports                                   •          •            •           •           •
 - report cross-references to supporting WPs2                                    •           •           •
 1
     QCs (quality controls) such as supervisory, technical, and other quality control types of review.
 2
     WPs (working papers) or documentation of work performed, evidence obtained, conclusions reached.
 3
   CORs had two or more years experience with the same contractor and relied on the contractor’s most
 recent peer review report in which the external, independent peer expressed an unmodified opinion on its
 quality control system for ensuring compliance with applicable standards in the conduct of its work.




                                                  12
         The CORs on all five contracts successfully monitored the progress of the contractors’
         audit work as well as the contractors’ compliance with contract terms and conditions so
         that the contractors accomplished the deliverables called for in the contracts. However,
         we noted that the CORs on two contracts had limited awareness of resources that could
         assist them in designing and performing their monitoring procedures and may benefit
         from learning about them. Namely, GAO/PCIE FAM Section 650 and the monitoring
         tool developed by the Federal Audit Executive Council (FAEC), a subcommittee of the
         President’s Council on Integrity and Efficiency. FAM 650 illustrates the procedures that
         generally should be performed for high, moderate, and low levels of review of contracted
         audit work, as well as what generally should be retained as documentation of the
         procedures performed. The FAEC tool incorporates best practices and lessons learned of
         Federal OIGs into a detailed program for use in monitoring contracted financial statement
         audits.

          We encourage CORs overseeing DoD contracted audit services to utilize
          FAM 650 and the FAEC tool as resources in designing and performing
          their oversight. FAM 650 can be found on the U.S. Government
          Accountability Office website at www.gao.gov and the FAEC tool can be
          found on the IGNet website for Federal OIGs at
          www.ignet.gov/pande/faec1.html.


Monitoring Contractor Independence
         Users of audit work done in accordance with Government Auditing Standards should
         have confidence that the work is objective. For this reason, Government Auditing
         Standards require that, in all matters relating to the audit work, the audit organization and
         the individual auditor be free from personal,13 external, 14 and organizational 15
         impairments to independence and avoid the appearance of such impairments. The audit
         organization and individual auditor must maintain their independence so that their
         judgments on all issues associated with conducting and reporting on the audit work are
         impartial and viewed as impartial by knowledgeable third parties.



13
  Personal impairments of auditor independence result from personal relationships or beliefs that might cause the
auditor to limit the extent of the inquiry, limit disclosure, or weaken or slant audit findings.
14
  External impairments to independence result from factors external to the audit organization, such as pressures
(actual or perceived) from management and employees of the audited entity, that may restrict the audit work or deter
the auditors from acting objectively and exercising professional skepticism.
15
   Organizational impairments to independence result when the audit organization provides nonaudit services
(i.e., services not performed in accordance with Government Auditing Standards) directly supporting an entity’s
operations thus impairing its ability to meet the overarching independence principles that audit organizations must
not (1) perform management functions or make management decisions and (2) audit their own work or provide
nonaudit services significantly or materially affecting the subject matter of the audits.

                                                         13
Monitoring the contractor’s independence under the standards for each audit performed
and securing contractor resolution of any impairment to independence is essential to
effective oversight of contracted audit services. User confidence in the results of the
audit work is strengthened knowing the contractor followed the independence standards
and avoided conflicts that may impair its objectivity. Monitoring contractor
independence for each audit performed can be accomplished by obtaining representation
from the contractor that it is not impaired by external factors or any past, ongoing, or
planned work involving the audited entity and that its audit staff are free of personal
impairments to independence. The representation covers the period of the activities
under audit to the date of the audit report. If any actual or apparent impairment exists,
CORs should ask the contractor to demonstrate that it has resolved the impairment, for
example, by substituting staff. Also, CORs should become familiar with the contractor’s
process for ensuring independence under the standards and determine whether the
contractor followed that process for the audit. Doing so helps to determine the extent to
which the independence representations of the contractor can be relied upon.

The following table summarizes what we observed with regard to the actions that the
CORs on the selected contracts took to monitor the independence of the contractors. The
first column identifies desirable but not mandatory monitoring actions.

                 Table 4. Monitoring of Contractor Independence on Selected Contracts
                                                     DeCA     DFAS MERHCF DDRS                    DISA
               Monitoring Action                    FS Audit FS Audit FS Audit IA Audit          IA Audit
 Determined Firm Independence For Audit                                  •        •                 •
 Determined Staff Independence For Audit                                 •        •                 •
 Determined Independence of New Staff                 n/a*              n/a*
 Identified Process for Ensuring Independence          •        •        •        •
 Verified If Independence Process In Use
 *
     n/a (not applicable) because no one joined or replaced members of the initial audit team.


Not all of the CORs determined firm independence and staff independence for each audit
performed or determined the independence of staff joining or replacing members of the
initial audit team. Specifically, the CORs on two contracts did not obtain any contractor
representations as to independence and the CORs on two other contracts did not
determine the independence of new staff. In one case this occurred because the CORs
relied on the contractors’ self-reporting of independence issues in accordance with
contractual language requiring the contractors to be independent as defined in standards,
as well as clauses precluding them from engaging in work that could be a conflict of
interest. Also, not one of the CORs on the five contracts verified whether the
contractors’ actually put in use a process for ensuring independence under the standards.




                                                  14
        We encourage CORs overseeing DoD contracted audit services to identify
        and document for each audit the contractor’s organizational independence
        and the independence of the individual engagement team members. CORs
        should identify and document the independence of initial and new staff,
        and verify the nature and extent of the contractor’s methods to maintain
        independence.

Monitoring Contractor Qualifications
        Monitoring the adequacy of the contractor’s quality control system and the competence
        of its audit staff and addressing conditions that may jeopardize audit quality is essential to
        effective oversight of contracted audit services. User confidence in the quality of the
        audit work and reported results is strengthened knowing the contractor followed
        Government Auditing Standards on quality control and staff competence 16 and had its
        system of quality control reviewed as well as qualified staff perform the work.

        Monitoring contractor qualifications can be accomplished by reviewing the contractor’s
        most recent peer review report, the related letter of comments, and the contractor’s
        response to the review report. CORs should adjust the level of their oversight as
        appropriate based on the significance of any changes to the contractor’s quality control
        policies and procedures since the peer review and any remaining weaknesses in the
        system.

        Monitoring staff qualifications can be accomplished by reviewing resumes to determine
        whether the staff has the experience necessary for the work such as government auditing
        experience, experience in the type of audit work, or experience with audits of similar
        entities, as well as educational and professional qualifications appropriate for their role.
        If any deficiency in staff expertise is identified, CORs may require the contractor to
        substitute more qualified staff to ensure the audit is performed by staff who collectively
        have the knowledge, skills, and experience necessary for that assignment.

        The following table summarizes what we observed with regard to the monitoring of
        contractor qualifications that the CORs on the selected contracts performed. The first
        column identifies desirable but not mandatory monitoring actions.




16
  Government Auditing Standards require audit organizations to have its system of quality control reviewed by an
external, independent peer at least once every 3 years and to ensure each audit is performed by a staff member or
team of staff members with sufficient and appropriate technical knowledge, skills, and experience for the work.

                                                        15
                 Table 5. Monitoring of Contractor Qualifications on Selected Contracts
                                                   DeCA     DFAS MERHCF DDRS                      DISA
              Monitoring Action                   FS Audit FS Audit FS Audit IA Audit            IA Audit
 Reviewed Most Recent Peer Review Report             •        •        •        •                   •
 Identified QC1 Changes Since Review                 2        2        •        •                   •
 Adjusted Oversight If QCs Deficient                  2          2           3            3          3
 Reviewed Resumes of Managers and Partners            •          •           •           •           •
 Reviewed Resumes of Senior Auditors                                         •           •           •
 Required Staff Changes If Jointly Deficient                                 4            4          4
 1
     QC (quality control)
 2
   CORs had two or more years experience with the same contractor and relied on the contractor’s most
 recent peer review report in which the external, independent peer expressed an unmodified opinion on its
 quality control system for ensuring compliance with applicable standards in the conduct of its work.
 3
  Not applicable because the most recent peer review report presented an unmodified opinion on the
 contractor’s quality control system.
 4
  Not applicable because the audit staff collectively had the technical knowledge, skills, and experience
 necessary for the audit assignment.


The CORs on all five contracts monitored the adequacy of the contractor’s quality control
system by reviewing peer review reports and monitored the competence of audit
management by reviewing resumes. However, the CORs on two contracts did not assess
the background and suitability of the senior auditors for the audit tasks, particularly those
supervising the day-to-day operations of the audit, directing staff auditors in the work
performed, and reviewing the work of staff.


 We encourage CORs overseeing DoD contracted audit services to review
 the resumes of all supervisory audit staff, including partners, managers,
 and senior auditors, to ensure that the work is supervised by personnel
 with the qualifications to ensure audit quality.




                                               16
Practices of Other Federal OIGs
   Other Federal offices of inspectors general also contract for audit services and share the
   common goal of receiving quality services on time, within cost, and compliant with
   applicable auditing standards and the contract. Therefore, we wanted to find out about
   the practices of other Federal OIGs. We judgmentally selected the following seven
   Federal executive departments and agencies with interagency relationships with the DoD
   and surveyed their OIGs about the OIGs’ use of audit contractors and the OIGs’ practices
   and experiences overseeing audit services contracts.

      •   Department of Homeland Security
      •   Department of the Interior
      •   Department of Justice
      •   Department of State
      •   Department of the Treasury
      •   Department of Veterans Affairs
      •   National Aeronautics and Space Administration

   The OIGs shared with us some of the practices they employ when overseeing contracts
   for auditing services. Highlights of the practices include:

      •   communicating expectations and results,
      •   establishing detailed milestones,
      •   tracking deliverables, and
      •   determining lessons learned.

   Communicating Expectations and Results. OIGs stated that communication
   throughout the contract period was important. Communicating expectations at the
   beginning of the contract through a well-defined statement of work was critical. They
   identified that it is also important that the contractors communicate their results timely.
   Several of the OIGs indicated that contractors generally communicated the status of the
   audit during bi-weekly briefings and progress reports.

   Establishing Detailed Milestones. OIGs stated that it was important to set detailed
   milestones in the statement of work. This provides timelines for the information OIGs
   receive from contractor for the OIGs to effectively evaluate and make decisions. The
   milestones help to both get the necessary information in a timely manner and to prevent
   disputes about contract requirements and due dates for deliverables.

   Tracking Deliverables. OIGs established a system for tracking deliverables. The
   tracking of the deliverables allows the OIG to determine whether the contractor is
   meeting the requirements of the contract. It also helps to determine whether the
   contractor is meeting the milestones and whether the OIGs are getting the type of product
   that is required in the contract.



                                            17
   Determining Lessons Learned. OIGs sought out a process for identifying lessons
   learned from contracting for auditing services. One of the OIGs had meetings with the
   contractor and prepared a lessons learned about the audit. This process allowed for both
   the OIGs and the contractors to comment about the process.


Conclusion
   We recognize that limited guidance exists as to specific strategies, techniques, and
   procedures for overseeing contracted audit services. Therefore, this report contains no
   recommendations. Instead, it identifies key strategies and practices we believe are
   essential to effective and efficient oversight. This report is intended for use by DoD
   contracting and contract oversight officials. While the suggestions presented are not
   mandatory, we hope that employing them will guide the DoD officials towards taking
   appropriate steps to monitor and evaluate contractor performance early on and as the
   audit progresses, thereby addressing and resolving problems that may result in reduced
   audit quality, missed deadlines, or additional costs before the audit is completed. Doing
   so will help ensure that the DoD entities contracting for or requesting audit services
   receive quality, timely audit results that can be relied upon for decision making purposes.




                                           18
Appendix A. Scope and Methodology
   This review was self-initiated. The overall review objective was to determine the
   effectiveness of and lessons learned from the oversight of DoD contracted audit services.
   We determined the extent of DoD’s use of contractors for performing audit services.
   Analysis of DoD contracting activity for FYs 2004 through 2006 indicated that the DoD
   awarded 471 contract actions for auditing services totaling approximately $129.5 million
   in obligated funds (Appendix B). From this information, we judgmentally selected five
   contracts for which we performed a detailed review of the capabilities and practices in
   overseeing them. The following table identifies the contracts and the period of contract
   oversight we reviewed.


                             Oversight Reviewed on Selected Contracts

                                                                     Short     Oversight Period
     Contract Number               Statement of Work                 Form      Done by Reviewed

    GS-23F-8127H /     Audit of the Defense Commissary Agency        DeCA       DeCA     Jan 06 -
    HDEC05-06-F-0002   Financial Statements                         FS Audit             Dec 07

    MDA230-02-A-0001 Audit of the Defense Finance and                DFAS       DFAS     Mar 06 -
                     Accounting Service Working Capital Fund        FS Audit             Nov 07
                     Financial Statements

    GS-23F-8132H /     Audit of the Department of Defense           MERHCF DoD OIG       Mar 06 -
    DO72089            Medicare Eligible Retiree Health Care Fund   FS Audit             Dec 06
                       Financial Statements

    GS-23F-8132H /     Information Assurance and Compliance          DDRS      DoD OIG   Sep 04 -
    DO35793            Audit of the Defense Departmental            IA Audit             Oct 05
                       Reporting System

    N00421-05-D-0027   Information Assurance and Compliance          DISA      DoD OIG   Dec 05 -
                       Audit of the Defense Information Systems     IA Audit             Dec 06
                       Agency Center for Computing Services


   We met with contracting officer representatives and other officials who assisted them to
   discuss the procedures they used to oversee contractors. We also reviewed oversight
   documentation. We evaluated whether the oversight staff:

      •   possessed the appropriate technical knowledge, skills, experience, and training
          necessary to be competent in overseeing the contracted audit services.

      •   monitored the independence of key staff on the contractor's audit engagement
          team as well as the organizational independence of the firm.

      •   monitored the qualifications and experience of key staff on the contractor's audit
          engagement team.


                                            19
       •   monitored the adequacy of the contractor’s quality control system.

       •   planned, performed, and documented their oversight (1) commensurate with the
           contractor's objectivity and independence, qualifications, performance history,
           and level of quality control; the complexity and scope of the contract
           requirements; and the contract performance schedule; and (2) to assure that the
           contractor complied with applicable auditing standards and the contract.

    We performed this review from December 2006 through January 2008.

    Use of Computer-Processed Data. We used the Federal Procurement Data System-
    Next Generation (FPDS-NG) as a source for data on DoD contract actions for auditing
    services. Since its inception in 1978, FPDS has served as the Government-wide system
    for collecting Federal procurement data, and almost since its beginning, the Government
    Accountability Office has reported concerns about it.

    The Government Accountability Office expressed concerns in September 2005 about the
    accuracy of FPDS-NG data. However, we relied on the data to identify contracting
    actions because we believed that the FPDS-NG was the best available source for that
    information.

Prior Coverage
    Air Force Audit Agency Report No. F2006-0003-FD2000, “Public Accountant
    Contract Audits,” May 30, 2006. The audit included tests of internal controls over
    quality assurance monitoring, the Public Accountant Contract Audit selection process,
    and invoice payment accuracy and certification. The audit did not identify any material
    departures from audit standards or significant administration discrepancies; therefore, the
    report did not contain recommendations for corrective action.




                                            20
Appendix B. Analysis of DoD Contracting Activity
            for FYs 2004 through 2006
        Analysis of DoD contracting activity for FYs 2004 through 2006 indicated that the DoD
        awarded 471 contract actions for auditing services totaling approximately $129.5 million
        in obligated funds. To determine this, we compiled and analyzed procurement data, as
        well as identified audit services contracts for which the DoD OIG is overseeing. From
        this information, we judgmentally selected five contracts for which we performed a
        detailed review of the capabilities and practices in overseeing them. This appendix
        summarizes our methods of analysis and selection.

        Procurement Data. We compiled data from the Federal Procurement Data System-
        Next Generation (FPDS-NG). This data consisted of contract actions reported by DoD
        and non-DoD organizations. 17,18 The following table shows that 451 contract actions
        with total obligated funds of approximately $109.3 million comprised the data
        population.

            Table B-1. Combined FYs 2004-06 Data on DoD Contract Actions Coded as Auditing Services
                                                                                                     Amount
                                                                              Number of             Obligated
                              Funding Component1                               Actions3             (millions)
                  Department of the Army                                          79                 $ 9.1
                  Department of the Navy                                          87                    14.8
                  Department of the Air Force                                    101                    14.4
                  U.S. Army Corps of Engineers-Civil Program                      13                     0.0
                  Defense Advanced Research Project Agency                         9                    10.6
                  Defense Commissary Agency                                        1                     1.0
                  Defense Contract Audit Agency                                    3                     0.1
                  Defense Contract Management Agency                               1                     0.2
                  Defense Finance and Accounting Service                          46                    17.9
                  Defense Information Systems Agency                               5                     1.7
                  Defense Logistics Agency                                        23                    12.5
                  Defense Threat Reduction Agency                                  2                     0.6
                  Missile Defense Agency                                           5                     1.9
                  National Geospatial-Intelligence Agency                          3                     1.6
                  Other2                                                          73                    22.9
                                                                                451                  $109.3
                  1
                      If data element left blank, Funding Agency Code initialized to Contracting Agency Code.
                  2
                      Other DoD Components such as the DoD OIG, Tricare Management Activity, etc.
                  3
                      Contract actions (awards, orders, modifications, etc.) connected to 209 contracts.




17
  The DoD organizations are the Departments of the Army, Navy, and Air Force; Defense Logistics Agency; and
Other DoD Agencies.
18
  The non-DoD organizations are the Department of the Interior, Department of the Treasury, General Services
Administration, and National Aeronautics and Space Administration. These organizations have memorandums of
agreement with DoD relating to interagency acquisition and contracting support.

                                                          21
We analyzed the data to identify contract actions coded “R704” for “Auditing Services”
as defined by the FPDS-NG Product and Service Codes Manual and the DoD
Components who funded the actions.

DoD OIG Data on Audit Services Contracts. We also compiled data from the
Program Directors within the Department of Defense Office of the Deputy Inspector
General for Auditing, Defense Business Operations. The Directors identified another
seven contracts for auditing services totaling 20 actions and approximately $20.2 million
obligated for FYs 2004 through 2006. These items are not included in the data shown in
Table B-1 because they were not properly coded as “R704” for “Auditing Services” in
FPDS-NG. Instead, they were coded as other types of services such as accounting,
professional, and research. Therefore, our initial data analysis did not identify them. The
following table identifies the procurement items and the service codes applied to them.

               Table B-2. Combined FYs 2004-06 Data on Audit Services Contracts
                          Coded as Other Types of Services in FPDS-NG
                                                                                  Amount
                                            FPDS-NG           Number of          Obligated
             Contract Number                  Code             Actions           (millions)
        GS-23F-0165N / DO35438                R703                 8               $ 5.6
        GS-23F-0165N / DO36008                R703                 4                  0.7
        HHM402-04-A-0033 / 0001            AE21, D399              3                  2.2
        HHM402-04-A-0033 / 0002               R499                 1                  0.4
        N00421-05-D-0020 / 0001-02            R499                 2                  1.0
        N00421-05-D-0025 / 0001               R499                 1                  6.5
        N00421-05-D-0027 / 0001               R499                 1                  3.8
                                                                 20                $20.2
        AE21   Research and Development/Product or Service Improvement
        D399   Other Automatic Data Processing and Telecommunications Services
        R499   Other Professional Services
        R703   Accounting Services


Selection Process. From the procurement data coded as auditing services, we selected
unique procurement instrument ID numbers from the data population for which related
actions collectively amounted to $1 million or more in obligated funds. This selection
consisted of 29 unique instruments totaling 121 actions and $81.1 million obligated, or
74.1 percent of the approximately $109.3 million obligated for FYs 2004 through 2006.
For each instrument, we determined whether the contracted services represented an audit
or attestation engagement under Government Auditing Standards by reviewing contract
schedules of services and statements of work. We also researched the contractors’
Internet sites to determine whether they marketed auditing services. Of the 29, nine
inferred contracted audit services from which we judgmentally selected four for detailed
review of related oversight. Overall, we discounted those instruments that closed out
during our review period, as well as those inferring nonaudit work such as accounting,
financial management, or technical analytic support services. From the additional seven
audit services contracts identified by the DoD OIG, we judgmentally selected one for
detailed review of related oversight. We focused on contracts for which related actions
collectively amounted to $1 million or more in obligated funds and discounted those with


                                          22
work still in progress and work completed before FY 2007. Appendix A identifies the
contracts we selected for review.




                                      23
